                                             29 January 1998


      Memorandum


                 To:     File
                         :gz~~tv/@oof
                         :,,.

               From:


           Through:


            Subject:
                         Paul J. Coleman
                         Special

                          Case Resolution

       NSF OIG investigated to determine whether
       Staff Associate in NSF-
       the
                                                      -                   who served as a Senior
                                   had a conflict of interests based on his NSF work on creating
                                   and
       retirement from NSF to become a        employee.

       We determined that on 12 September 1995, Dr-
                                                                             and his subsequent


                                                               was approached by
,b-(                                 who suggested that           might be offered
       Director position at        .             refused           further, and sought guidance
  .    from QIIPII)in the Office of General Counsel regarding any conflicts issues created
       by the discussion. -advised             Dr.       that the discussion did not present any
       conflict issues.   .

       On 3 October 1995,                  was approached again by --           who offered him a
       position with the           -recused             himself from further p%icipation in CRDF
       matters in his NSF capacity, and sought further guidance from
       replied that his earlier advice ot-             had been based
               had unequivocal1 re'ected the           position, but said that           was free to
       reconsider the offer.    9            reply memo concluded that "The facts, as 1 understand
       them to be, would not support a contention of misuse of office for private gain." He also
       concluded that "I do not believe your continued employment discussions with the
       would establish an a earance of impropriety on your part." We did not identify any
       evidence thad a r t i c i p a t e d in           matters in his NSF capacity after this point.
      u b s e q u e n t l y retired from NSF to accept a position as            Associate Director.

       ~ e c a u s iaised   w the conflicts issue promptly with OGC and sought its guidance on
       the matter, and because he acted in accordance with that guidance, we do not believe that he
       has violated any conflicts laws or regulations, For this reason, this case is closed.
